«•

O

sfozlzj '
MO

No. _

2b 2-oS

IN THE
SUPREME COURT OF THE UNITED STATES

yiJ

— PETITIONER

(Your Name)
vs.

FILED
AUG 0 3 2021
suprem^courtS^^

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

IS

^///- / Jhmp/j_

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SlSMlt
(Your Name)

(Address)

V/ln/'JsiJtkt., UA fBd
(City, State, Zip Code)

bnj W'-Si &
(Phone Number)

Questions Presented
1. Should an unopposed default judgement be granted because the Department
of Labor (“DOL”) did not submit the full administrative record to the court
as required by FRAP 17 and the Administrative Procedure Act, or comply
with local rules on the requirement, including while this matter is
administratively active before the DOL and proceeding as 2021-SOX-00020,
irretrievably prejudicing this matter and thwarting a full and fair review?
/

2. May a Circuit Court declare as res judicata a matter currently proceeding
before the Supreme Court and the Department of Labor?
3. Did the Circuit Court lack subject matter jurisdiction to rule while an earlierfiled Sarbanes-Oxley matter with identical causes of action is not
administratively exhausted before the Department of Labor?

LIST OF PARTIES

[ uKAJI parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the coui't whose judgment is the subject of this
petition is as follows:

RELATED CASES

Ufac:

'Ite'l - S&K - 60/TZ6

TABLE OF CONTENTS
1

OPINIONS BELOW

Z

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

g

CONCLUSION

INDEX TO APPENDICES

APPENDIX A

t htef' A-

OnkiL, 1mA - W " OCOU)

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

,3r

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

CiMJnJ ✓SOd-OdZZ)
Vdtj !/■ Gzdjgaf MO ■ f£9 Fid d>f. C&t. denied
Md S. 6&. Wf
Wtm d Mt
£90 F.S/pp. 2d <fi!
SMrtu/ i/. JFMamn
ptyp 2d
Utam </■
dsb F fyfi-zd/U2
. ‘kluesht. " faeyy( MS M>- 0-/Z5
3JaMsd
MS

£
fciTr)

w

fflmur &rnSkl>i !/, SSi/C^Oti
STATUTES AND RULES

fizdzU/t
a FppaddeStFFknM— Otcluj Aedr

fy-vdis/cc-

fijLMdfldsfr&d}\a /foced4/f€j /hzd

yOTI IER-

—^ dMti Cjnbwi®;

3>m /. Htsiep, f7J Qfr
Oam v. m w/t h/l whip um wti

fM)nJ /• Ttp'd UW^ F*.

v>"H?U LS-C+-J

Or
*

i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] hag been designated for publication but is not yet reported; or,
s unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was ^i/3/

------

[ ] No petition for rehearing was timely filed in my case.
timely petition for rehearing was</denied bv the United States Court of
Appeals on the following date: b / / /---- -------- . and a copy of the
order denying rehearing appears at Appendix —..
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

£

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Vkl

5

Statement of the Case
I worked in the Office of the General Counsel at JPMorgan Chase & Co.
(“JPMC”), underlying defendant here. My job included regulatory compliance in
employee surveillance requiring reports internally and to government regulators,
including to the Securities & Exchange Commission (SEC), which results in this
Sarbanes-Oxley (SOX) action now.
There is a separate Supreme Court matter proceeding before this Court as
No. 20-1658.
I.

The Department of Labor’s failure to comply with FRAP 17 and the

Administrative Procedure Act among other due process issues have unduly
prejudiced this matter.
II.

Yet the Second Circuit, without the whole administrative record

submitted by DOL and no explanation given to the court or Plaintiff as requested,
ruled that this matter is res judicata, complicating this matter further and making it
impossible for me to secure counsel.
III.

I recently tried to secure counsel in this matter and estimated costs for

review of the record in this matter before a contingency agreement would become
effective were estimated to be $150,000.00 because of the procedural posture of
this case.

4

The cost for representation in this matter is prohibitive and completely
unreasonable for a core issue as simple as this:
Did JPMorgan backlist me and fail to follow its employment policies?
The answer is yes simply looking at documents JPMC provided 3 months
after discovery cut-off and full briefing was complete. The ARB ordered
reconsideration. The ALJ refused. And now we have had over 5 years of
unnecessary litigation.
IV.

This matter is currently proceeding before the DOL as 2021-SOX-

00020. Appendix A.
V.

The Complaint made within statute of limitations was in a cue for

review for 4 years at DOL among other matters. i

11 requested appeal when I received an OSHA dismissal letter only pursuant to a
Freedom of Information Act request in 2018 or 2019. I did not otherwise receive any OSHA
correspondence. As the DOL Chief OALJ Judge mentioned in his order, the dismissal was sent
to the wrong address. Furthermore, I was told by OSHA Director Chris Carlin, with whom
JPMC attorneys were allowed extensive discussions by email about various complaints, to only
contact Teri Wigger for any case information or questions. I did not have the same access to
OSHA representatives that JPMC counsel had throughout. I was told to wait for notices.

VI.

Federal courts are deprived of subject matter jurisdiction in SOX

matters until administrative remedies are exhausted. Daly v. Citigroup Inc.. 939
F.3d 415, 427-428 (2d Cir. 2019), cert, denied. 140 S. Ct. 1117, 206 L. Ed. 2d 185
(2020). See also, Wong v. CKX 890 F. Supp. 2d 411 (SONY); Sharkey v. J.P.
Morgan Chase & Co., 805 F.Supp.2d 45, 53 (S.D.N.Y.2011); Bozeman v. Per-Se
Technologies, Inc. 456 F. Supp. 2d 1282.
VII.

However, there is a motion to dismiss pending now before another

DOL ALJ (it has since been moved from the DOL Chief ALJ in DC to Boston) in
2021-SOX-00020 based on the litigation ahead of it. See, Sylvester v. Parexel
International LLC, ARB No. 07-123 en banc; Stallard ARB (SOX actions are
generally not suitable for motions to dismissal because they follow AIR 21
requirements.)
VIII. I filed a motion to compel arbitration at FINRA to have all of these
matters involving JPMC before one forum for a resolution. See, Alliance
Bernstein v. Schaffran 2d Cir. JPMC has opposed my motion.

c

Reasons for Granting the Petition
Because DOL did not abide by FRAP 17 and for other due process reasons, I
believe this Court should enter default judgement in my favor. DOL’s noncompliance with FRAP 17 and other due process issues have unduly prejudiced
this matter. See, Davis v. Musler, 713 F.2d 907, 915 (2d Cir.1983). See also,
Jenkins v. EPA 2018 WL 2927663 (ARB 2018).
The procedural posture of this matter has become unnecessarily convoluted
and courts below have made decisions without the full administrative record of this
matter resulting in severe prejudice here.
The court also ruled without jurisdiction. The matter is administratively
active before DOL and there is no exhaustion. Daly v. Citigroup at 427-428.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

%

